-                                                                      --
                              CLOSEOUT FOR M93030010
       This case was brought to the attention of OIG on March 1, 1993, by Dr.,-
a program director for the                                             section of the Division of
w i t h i nt                                          h                             e The program
director had received allegations of plagiarism and violation of the integrity of peer review from
the complainant, Dr.                  a faculty member at
University. The complainant alleged that a proposal submitted by Dr:
and a faculty member at the               University in m
                                                        a,                   to the
             contained text, figures, and equations plagiarized from the complainant's NSF
proposal                   b                .               " The complainant alleged that the
subject had obtained a copy of the complainant's proposal from NSF as part of the merit review
process.

       OIG's investigation report and NSF's Deputy Director's January 5, 1995, letter reflecting
her decision constitute the closeout for this case.


cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                           Page 1 of 1
                                NATIONALSCIENCE FOUNDATION




-
                                     4201 WILSON BOULEVARD




-
                                    ARLINGTON, VIRGINIA 22230




-
-
                                                  January 5, 1995

    OFFCE OFTHE
   DEPUTY DIRECTOR


Dr.
Department-fo




As you are aware, the Office of Inspector General (OIG) of the National Science Foundation (NSF)
has conducted an investigation into an allegation that charges you with plagiarism.

I have very carefully reviewed all the materials in the case and write to inform you that I concur
with the OIG conclusion that you violated the confidentiality of our peer review process by
plagiarizing material fiom an NSF proposal you received for review. By copying verbatim
language or sentences fiom another source without attribution or offset, and incorporating that
language in one of your own proposals, you have violated the confidentiality that NSF insists upon
whenever we send proposals to researchers for review.

The instructions to reviewers specifically state that reviewers should not "copy, quote or otherwise
use material" fiom the proposal. .Yourbehavior breached the cod~dentiaiityof our peer review
process and ignored the conditions of trust inherent in our merit review process. We take this
infraction very seriously.

Based on this determination, we will bar you from serving as a peer reviewer for NSF for five years
fiom the date of this letter.


                                                    Sincerely,



                                                    ~n~ C. Petersen
                                                    Deputy Director
                   CONFIDENTIAL

   NSF OIG INVESTIGATION
                     REPORT

                OIG Case Number M93030010




This document is lent to you FOR OFFICIAL USE ONLY. It remains the
property of the Office of Inspector General. It may not be reproduced. It
may be disclosed outside NSF only by the Inspector General, pursuant to the
Freedom of Information and Privacy Acts, 5 U.S.C. $8 552, 552a.
                                       -
     REPORT OF INVESTIGATION INTO AN ALLEGATION OF
        MISCONDUCT IN SCIENCE AND ENGINEERING

                                          SUMMARY
        The Office of Inspector General (OIG) has determined that Dr.                        (the
subject) of the U n i v e r s i t y of                  violated the integrity of the confidential
peer review process by plagiarizing material from an NSF proposal he received for review. This
conclusion is based on an investigation performed by OIG. OIG recommends that NSF find that
the subject committed misconduct in science and take the following actions as a final disposition
in this case. The subject should receive a letter of reprimand from the NSF Deputy Director.
The subject should be told that NSF has made a finding of misconduct in science and that he is
prohibited from serving as a reviewer of NSF proposals until April 1999.

                                       OIG'S INOUIRY
          OIG received an allegation that proposal l f i u b m i t t e d    by Dr. h-te
subject) to th                              contained text, figures, and equations plagiarized from
Dr. -(the                   PI's) NSF proposal                         It was further alleged that the
subject's proposal contained ideas plagiarized from the PI's proposal and published papers. OIG
was also informed that the subject had obtained the material from the PI's proposal during his
confidential peer review.

          OIG compared the PI's funded NSF proposal, '#"                                 with the
   subject's submission, "                       -                        -  -
"-             to determine if text, figures, equations, or ideas had been copied from the PI'S
  proposal without indentation or quotation marks and without a citation to the source document.

       With regard to the allegation of verbatim plagiarism OIG found nine sections of the
subject's proposal that contained material copied from the PI's proposal. Seven of these sections
consist of text passages of varying length which appear to be substantially similar or identical
to passages found in the PI's proposal. Two other sections consist of diagrams that are found
in the PI's proposal. None of these sections was offset from the proposal and none was
accompanied by a citation to the source document. There were no references or
acknowledgments to the PI's work or his publications in the subject's proposal.

        Copies of the relevant portions of the subject's and the PI's proposals are attached as
 Tabs A and B, respectively. The passages in the PI's proposal that appear to be copied are
 sequentially numbered and a corresponding number has been placed next to the appropriate
 passage in the subject's proposal.



                                               Page 1
       With regard to the allegation of plagiarism of ideas (intellectual theft), OIG was informed
that the proposed work discussed on page 9 of the subject's proposal had been published
previously in papers by the PI'. The subject's proposal did not cite any of the PI's publications.
01G was further informed that the concepts of crosslinking and blend compatibhtion presented
in the PI's proposal have not been published; however they appeared in the subject's proposal
without any acknowledgment or a statement of permission from the PI. OIG confirmed that the
ideas presented in the PI's papers and the PI's proposal did appear in the subject's proposal.
OIG noted that the two proposals address the synthesis of a particular class of molecules in a
narrow field where intellectual overlap between two experienced PIS could be expected. Under
these circumstances it was unclear if these ideas were directly derived from the PI's materials.


     With regard to the allegation of violating the integrity of peer review, OIG reviewed the
instructions on the Proposal Evaluation Form that NSF reviewers receive. The form states that
"NSF receives proposals in confidence and is responsible for protecting the confidentiality of
their contents." Reviewers are asked "not to copy, quote, or otherwise use material" from a
proposal they receive for peer review.

       OIG found that NSF had sent the subject a copy of the PI's NSF proposal with a request
for peer review in May 1990. The subject has served as a reviewer for NSF twice, once for
proposal                and once prior to that for an earlier submission by the same PI.

       In June 1990 NSF received a letter (Tab C) from the subject stating that he

       did not have time to review the research proposal. I read briefly the summary
       of the results achieved upon the previous award in the field of rotaxanes and it
       seems to me that very good progress was made in this field which requires very
       hard work and synthetic skills.

       Based on the above information, OIG concluded that there was sufficient substance to the
three allegations to contact the subject for information.

The Subject's Response and OIG's Analysis

        In October 1993, OIG contacted the subject and requested his views on the allegations
of plagiarism (copying words and ideas without attribution) and the allegation of violating the
integrity of peer review. OIG's letter and the subject's response are attached as Tabs D and E,
respectively.




                                              Page 2
1)     Plagiarism - Intellectual Theft

        OIG's letter to the subject contained copies of the relevant portion of the PI's NSF
proposal and the five papers that allegedly contained ideas presented in the subject's proposal
without attribution to the PI. The subject's comments on the PI's proposal and each of the five
papers are summarized below. None of the PI's papers cites NSF support; however, OIG was
interested in the subject's response with regard to the papers because it would speak to a possible
pattern of intellectual theft.

        The subject devoted much of his response to an explanation of the intellectual differences
between his proposal and the PI's. He presented a rather vigorous defense that the techniques
and rationale forming the foundation of two proposals are quite different. The subject's research
is focussed on the crosslinking of polymers and the PI's, as expressed in his proposal, on the
formation of non-crosslinked groups and their solubility properties.

        OIG noted that the PI's proposal was submitted two years before the first papers from
his group discussed crosslinking of these molecules. The emphasis in the subject's proposal on
crosslinking and its presence in the PI's papers show that these documents were contemporaries
of each other and reflected the evolution of this research field after the submission of the PI's
proposal. It is possible that the subject developed his ideas for crosslinking these molecules
from the PI's proposal, but a direct connection is not apparent.

        The subject stated that the "threading in the synthesis of       " has been a topic for
research groups for the last 20 years and cited his own publications from 1976. OIG reviewed
the two papers submitted by the subject and found that they were within the same narrow field
of study as the PI's. The subject also submitted a single-page document hand-dated 1989 that
listed research themes suggested by him to graduate students. Among the themes was the
"crosslinking of polymers by              "

       The subject stated that following the preparation of the                he intended to
convert the molecule into a bifunctional monomer and the method and derivatives for that
conversion were not mentioned in the complainant's proposal or papers. It does not necessarily
follow that because portions of the subject's conversion scheme are original to him that the
remainder was not stolen from the PI.

        OIG reviewed the five papers by the PI which described the synthesis of a particular
              and the use of that                 and its derivatives in the formation of larger
complexes. The subject stated that these papers described research in the same general area as
that described in his proposal but did not describe his research project. OIG determined that the
five papers described research related to the subject's but that the subject's project was different
and relied on different methods.

       OIG determined that the subject and PI are competitors in the same field of research.
A clear link between the PI's proposal or the PI's published papers and the ideas presented in

                                              Page 3
the subject's proposal could not be established. Allegations of intellectual theft against
individuals who have prior research experience in closely related research fields are extremely
hard to resolve. It is difficult to develop suficient evidence to prove one way or another
whether the subject developed a particular line of reasoning strictly from the alleged source and
not the subject's own resources or from topical information exchanges that lead to similar, but
independent, research insights. By describing the similarity between the PI's and his research
interests, and establishing his prior research interest and publications in this area, the subject has
provided a reasonable explanation for the intellectual similarity between the two proposals.

        The subject presented a plausible argument for his independent generation of the ideas.
OIG concluded that there was insufficient evidence to pursue the allegation of intellectual theft
further.


2)     Plagiarism - Copying Without Offset and Attribution

        After comparing the subject's and the PI's proposals OIG found 9 passages that contained
substantially similar and identical text, figures, and equations. Below is a description of each
section (D) followed by the subject's ~xplanation(E) and a conclusion (C). The subject excused
the copying by stating "these [passages] deal with introductory general information concerning
          formation, which have appeared in many publications and even in books from a long
time ago [an example is provided]. Our m            h proposal can stand solid on its feet without
mentioning any of these passages" (emphasis in original). When responding to the allegation
of copying without offset or attribution the subject did not distinguish between verbatim
plagiarism and intellectual theft.

       The first six copied passages appear in the "Project Summary" section of the PI's
proposal and in "Scientific Background" section of the subject's proposal:

Passage 1

D       Passage 1 contain fragments of two sentences that explain the equations presented in
        passage 2.

E       The subject stated that "the passage marked by you as 1 is an explanation of the terms
        of the equation."

C       The subject did not provide an explanation for the identical language in the two
        proposals.




                                               Page 4
Passage 2

D     This passage contains a reaction schematic and two energy equations.




C     The subject's proposal does not provide a reference to this article. By stating that
      material in his proposal came from an article that he elected not to cite, the subject
      confirmed that he consciously failed to provide a citation to the source of material in his
      proposal, thereby acknowledging that he had plagiarized from a source proposal.

Passage 3

D     This passage contains about 4 fragmented sentences. It discusses and references separate
      work by the subject's group and three other research groups.

E     This passage in the subject's proposal contains the same references to the three research
      groups cited in the PI'S proposal. With regard to the work from his laboratory, he stated
      "the information appears in our own work, ref. 6 [a paper co-authored by the subject],
      in the proposal and it contains also results cited from our own work mentioned in ref.
      6 . . . ."

C     OIG reviewed the reference and could not find this exact passage in that publication.
      The subject addressed only the intellectual content of the passage describing work in his
      lab. The subject did not provide an explanation for the identical language describing
      work from his and others' laboratories in the two proposals.

Passage 4

D     This passage is the schematic of a reaction. The work related to the schematic, but not
      the schematic, is attributed to another researcher in the PI's proposal.

E     The subject stated that "the diagram . . . belonging to the work of [another researcher]
      and co-workers concerning template synthesis, appears, in essence, in the references cited
      as no. 9 in my proposal . . . ."

C     Reference number 9 is a List of 3 citations; none were written by the subject. There is
      evidence that the subject took this schematic from the PI's proposal, because spurious
      marks on the figure found in the PI's proposal (produced as an artifact of the PI's
      reproduction of the figure for his proposal) also appear in the figure in the subject's
      proposal (circled and noted as "M" in the copies presented in Tabs A and B). The
      subject did not provide a copy of the material from another source document or the exact


                                            Page 5
       reference for the figure in his proposal or his response to show that the material had
       come from a source other than the PI's proposal.


Passage 5

D      This passage is a single sentence immediately following the figure in passage 4.

E     The subject stated that this passage is "a continuation of the explanation given in Passage
      1."

C     Indeed, in the subject's proposal, passage 5 has been repositioned to follow passage 1,
      which is immediately preceded by the figure in passage 2. The subject has reananged
      these short passages (1 and 5) to suit better the flow of his proposal. The subject
      provided no explanation for the identical text in the two proposals.

Passage 6

D     This passage is 6 sentences long; five of these sentences discuss work from the subject's
      laboratory described in reference 6. The remaining sentence is referenced to two
      published papers by another group.

E      The subject stated that this passage "is [a] reference to our own work." The passage in
       the subject's proposal contains citations to the work from his lab and another for the
       work from one of the other laboratories cited in the PI's proposal.

C      OIG reviewed the reference and could not find this exact passage in it. Again, the
       subject's response only addressed the intellectual content of the passage which described
       the work in his lab. However, he did not explain how identical language describing
       work from the subject's and other's laboratories appeared in both proposals thereby
       failing to address the allegation of verbatim plagiarism.

Passages 7-9 appear in the "Project Description" in the PI's proposal; passage 7 under the
subheading "Rationale" and passages 8 and 9 under "Approaches." In the subject's proposal
passages 8 and 9 appear in "Scientific Background" and passage 7 in "Objectives and Expected
Significance of the Research."

Passage 7

D      This passage contains fragments of two sentences that describe the mechanical properties
       of rotaxanes.

E      The subject stated that this passage "mentions general[ly] known information."


                                            Page 6
C      The substance of these sentences may well be generally known. However, the language
       in the two proposals is identical and this identity was not explained by the subject.

Passage 8

D      This passage contains four short sentences that describe the advantages of one of the two
       experimental approaches being suggested by the PI.

E      The subject stated that this passage "is general knowledge that is known for close to
       thirty years." It appears in the introductory section of his proposal.

C      While these sentences in isolation may discuss a well-known principle, the PI applied that
       principle to his research aims, making it specific to his proposal. The identical wording
       in both proposals was not explained. The passage is far too long to be attributed to a
       common technical description constrained by limited means of expression.

Passage 9

D      This is a 3-sentence passage introducing the second of the two experimental approaches
       suggested by the PI, and describing its advantages.

E      The subject stated that "the ideas in passage marked 9_ are mentioned in these references
       [the three references to the work by another researcher].

C      The subject failed to explain the reason for the identical language in the two proposals.
       The passage is far to long to be a technical description constrained by limited means of
       expression.

For none of the 9 passages did the subject provide an adequate explanation, literature references,
or copies of source documents other than the PI'S for the identical text, figures, and formulae
in the two proposals.

        Frequently when individuals respond to inquiries into allegations of plagiarism they state
that their copying did not constitute plagiarism either because the copied text did not contain new
ideas or because it expressed commonly held ideas that could not be improved by rewording.
Each of these individuals has failed to understand that plagiarism involves using either the words
or the ideas of another person without attribution.         text copied from another author, even
if it describes the individual's own research and irrespective of its intellectual content, should
be marked off by quotation marks or indentation. A citation to the original work must
accompany the text, and must be included in the reference list. With regard to copying without
attribution, neither the lack of originality of the ideas in the copied material nor the difficulty
of expressing the matter better than the original author did is an acceptable defense. The issue
is the copying of another's text, no matter how mundane or well-stated, without indicating that
the text was copied or without acknowledging the source.

                                              Page 7
        After reviewing the subject's response, OIG determined that the subject had not
adequately addressed the substantial similarity or identical nature of the 9 passages found in the
two proposals. He did not provide copies of any other source documents to support his assertion
that the copied material was commonly used. In fact, in the case of passage 2 he clearly stated
that he was aware that the source document was a publication by another individual and that he
had not included a citation to the document in the proposal's reference list. His proposal appears
to contain verbatim transcriptions of 9 passages from the PI's proposal. OIG concluded that
there was sufficient substance to investigate the allegation of plagiarism.

3)     Violating the Integrity of the Confidential Peer Review Process

        The subject acknowledged that NSF forwarded the PI's                                him
for peer review. He has not provided an adequate explanation for the verbatim transcription of
material from the PI's proposal into his own submission to the              Science Foundation.
Although requested to do so, the subject did not provide OIG with copies of materials from other
documents to show that the copied passages contained commonly used language. By concluding
that there was reasonable substance to the allegation that the subject had copied the 9 passages
from the PI's proposal which he had received for confidential peer review, OIG also concluded
that there was sufficient substance to the allegation that he violated the integrity of the peer
review process to conduct an investigation.

                                OIG'S INVESTIGATION
        OIG sent the subject a letter which discussed the exact support needed to disprove the
allegations of plagiarism (copying without offset and attribution) and violation of the integrity
of confidential peer review. OIG specifically asked the subject to provide copies of the
appropriate source documents (see Tab F). The subject's response is attached as Tab G.

       In the subject's response he failed to acknowledge that when copying another's text, that
text must be offset and a citation provided. He said he considered his proposal a "secret
document . . . to come to the attention of a few experts in the field. As such I did not feel it
was necessary to give exhaustive references to all what is known, or give reference to every
passage since it is not a publication." Therefore he provided "general informative references
of [another researcher's] work" but "not on the exact page where" the passage and figure are
printed (passages 4 and 9 discussed above). For similar reasons the subject indicated that he did
not provide a citation to a 1991 I  I I II  I I I)  article (passage 2 discussed above).

        With regard to passages 3 and 6 , he again attempted to minimize the significance of the
passages by insisting they discussed only the work of his laboratory, which they did not. The
subject erred by describing the extent of the copying as a "simple passage" and "a sentence."
In fact passage 3 consists of 11 lines (3 sentences) and passage 6 consists of 14 lines (5 lengthy
sentences). Because the subject's first letter to OIG had stated that the copied text was general
knowledge, OIG requested copies of his or others' documents that contained this exact wording.


                                             Page 8
The subject stated, "I do not have such a written documents, but I could have used such a
sentence in describing our work years ago . . . in the many discussions that we had."

       The subject reiterates his defense for passages 7 (5 lines) and 8 (5 lines) stating that they
are "general[ly] known information and general knowledge, they are so, and no unique
descriptive phrases [that] were invented by another were used in my proposal." OIG had
requested a reference to and copies of pages from documents other than the PI'S proposal to
demonstrate the common usage of this material. Without evidence to the contrary OIG has
concluded that these phrases are unique to the PI'S proposal and the subject copied them
verbatim from that document.

       The subject failed to address the text in passages 1 (2 lines) and 5 (2 lines) which appear
to have been copied from the PI'S proposal. Again, without evidence to the contrary, OIG has
concluded that these phrases are unique to the PI's proposal and that the subject plagiarized them
verbatim from that document.

       The subject concluded

       From your letter it appears that even using such a simple sentence describing our
       own work is not allowed if it has been used in a Proposal sent to us for review.
       Since the Proposal is considered as a secret document and I am not supposed to
       quote it, then it means I cannot use anymore such a simple sentence to describe
       my own work. I am not sure that every Reviewer is aware of this fact. If I
       knew that I am not allowed to quote my own work using such a simple sentence,
       then I would not have taken on myself to review a Research Proposal. I
       understood that a Reviewer of a Proposal should keep strictly secret the scientific
       ideas presented in the Proposal, not make use of it himself, or transfer to others,
       and to this I have adhered.


By reviewing another investigator's proposal that contains a description of the subject's work,
the subject is not barred from future descriptions of his own work; he is, however, restricted
from copying and using as his own even "simple sentences" describing his work written by
another investigator in a confidential document. This restriction is not limited, as the subject
seems to think, to just "the scientific ideas presented in the Proposal."

       The NSF Review Form clearly states

       The Foundation receives proposals in confidence and is responsible for protecting
       the confidentiality of their contents . . . For this reason, please do not copy,
       quote, or otherwise use material from this proposal.

Both the PI's and subject's proposals are considered confidential documents. A reviewer must
observe the restrictions against the personal use of material in a reviewed document while an

                                              Page 9
author, with respect to nonconfidential materials, must accurately indicate copied material and
its source. On the basis of the evidence reviewed OIG determined that the subject violated the
confidentiality of peer review by plagiarizing material from an NSF proposal received for review
into his own proposal.

       The subject closed his letter with the comment

       I want to stress again that the basic scientific idea in my research proposal . . .
       [and] the plan of research was prepared without any connection with [the PI's]
       proposal of 1990 or his publications . . . the research project was suggested to
       students before I have ever seen [the PI's] proposal of 1990.

       OIG determined that the ideas in the subject's proposal may have been original to him;
however the subject's proposal was prepared withthe benefit of the 91's proposal because it
contained a substantial quantity of text and several figures copied from it.


         Prior to forwarding the draft investigation report to the subject OIG learned that he was
now on sabbatical in the U.S. collaborating with a researcher at a U.S. university. Although
that researcher does not have NSF support, the subject's sabbatical in the U.S. raises the
possibility that he may be used as a reviewer by NSF, or through his contacts at the researcher's
institution he may gain access to confidential documents such as NSF proposals sent to
researchers for peer review.


Subiect's Response to the Draft Investigation Report

        On April 21, 1994, OIG forwarded the draft investigation report to the subject for
comment. On May 9, 1994, OIG received a response from the subject (see Tab H). The
subject indicated that he felt the report "leaves some doubt as to the originality of my research
proposal" and requested that the report specifically state (1) that the PI's proposal did not
address the crosslinking of polymers and (2) that the subject had "submitted a document from
. . . 1989 (before the NSF proposal was submitted to [him] for review) asserting that the subject
of the crosslinking . . . was suggested by [him] to graduate students as a theme for research
work . . .." Since OIG's investigation could not determine to what extent, if any, the
development of the ideas presented in the subject's proposal was influenced by his review of,
and subsequent copying of material from, the PI's proposal, OIG believes the draft report
adequately addressed the subject's claims to originality in his proposed crosslinking work.
Nonetheless, the final investigation report now includes mention of the single-page document
OIG received from the subject.

       The subject said he felt the verbatim plagiarism of the nine passages was "overstressed"
in the draft investigation report because "they can be omitted altogether without affecting the
research proposal or the research plan." OIG disagrees; the subject violated NSF's confidential

                                            Page 10
peer review process by plagiarizing material from an NSF proposal received for peer review into
his own. Confidential peer review is a hallmark of the NSF system and the proposal received
by the subject was accompanied by explicit instructions to him not to use the material. Nor does
OIG accept the subject's insistence that the passages were not important. The material consisted
of a substantial quantity of text, as well as equations and figures. The subject must have included
them because, at that time, he felt they contributed to his proposal. PIS rarely take the time or
effort to include completely extraneous material in their proposals.

OIG's Conclusion Regarding Misconduct in Science

        For NSF to make a finding of misconduct, a preponderance of the evidence must show
that the subject committed the acts (violation of confidential peer review and plagiarism) with
a cupable state of mind (such as willful, knowing, or grossly negligent) (45 C.F.R. 5 689.2(d)).
Despite OIG's repeated requests, the subject provided no evidence to demonstrate that the copied
material appeared in documents other than the PI's proposal. OIG determined that a
preponderance of the evidence available to it showed that the subject had violated the
confidential peer review process when he copied 9 passages of material from the PI's proposal
without attribution or offset.

        In evaluating the subject's state of mind, we consider all the relevant circumstances. In
this case, the subject rearranged the copied material to suit the flow of his proposal, indicating
that the subject knew the presentation order of the copied material in the confidential source
document was not appropriate for his use and he therefore manipulated it to suit his purposes.
The subject could not have worked so extensively with this material without being aware that
he was not the original author. The subject admitted that he knowingly omitted appropriate
source citations from this proposal. In our view, these facts establish, by a preponderance of
the evidence, that the subject knowingly violating the integrity of the peer review process and
copied the text from the proposal sent to him for confidential peer review into his own proposal
submission.

       Therefore OIG concluded that a preponderance of the evidence supports the findings that
the subject knowingly violated the confidentiality of peer review and plagiarized material from
a confidential source document. OIG concluded that the subject committed misconduct in
science.




        Under 5 689.2(b) of NSF's misconduct in science and engineering regulation, "[iln
deciding what actions are appropriate when misconduct is found, NSF officials should consider:
(1) How serious the misconduct was; (2) Whether it was deliberate or merely careless; (3)
Whether it was an isolated event or part of a pattern; (4) Whether it is relevant only to certain
funding requests or awards involving an institution or individual found guilty of misconduct."
In this case the copying was found not only in the background section of the proposal but as

                                             Page 11
support for the proposed work. We believe the evidence supports a finding that the subject
knowingly violated the integrity of the peer review process when he plagiarized and manipulated
material from a proposal he had received for review into his own. Our review uncovered
evidence that the subject knowingly omitted citations to source documents from this proposal.
Therefore, we recommend two actions by NSF in response to the misconduct in science by the
subject: the subject should be sent a letter of reprimand, which is a Group I action (see 5
689.2(a)(l)(i)) and he should be barred from serving as a peer reviewer for NSF for the next
five years, which is a Group III action (see 689.2(a)(3)(iii)). No additional action is
recommended to protect NSF from additional plagiarism because the subject resides and works
in a foreign country and does not submit proposals to the Foundation.


                    CONCLUSION AND RECOMlMENDATION
       It is considered plagiarism to use the words (copying without offset or attribution) or
ideas (intellectual theft) of another person without permission and attribution. In deciding
whether plagiarism (copying without attribution or offset) occurred, neither an individual's
intimate knowledge of the field nor hislher difficulty in stating the same concept in hislher own
words is a consideration.

        The subject in this case is a senior researcher who resides and works in a foreign
country. Although he has never held an NSF award, the subject has served as a peer reviewer
for NSF on two occasions. Both proposals reviewed by the subject had been submitted by the
PI. However, the subject's current sabbatical location and professional affrlation increase the
possibility that he may be used as a reviewer by NSF or may otherwise gain access to
confidential documents such as NSF proposals. OIG investigated the allegations of plagiarism
and violation of confidential peer review and determined that there was sufficient evidence to
conclude that the subject plagiarized 9 passages from the PI's proposal which the subject had
received from NSF along with a request for confidential peer review. The passages were of
different lengths and comprised variously text, figures, and equations. The subject's proposal
did not contain a citation or reference to the PI's work, nor did it state that prior permission for
the use of any confidential material had been granted by the PI. The subject said that he had
consciously omitted necessary source document citations from his proposal.

       The material in proposals received for peer review is considered confidential and not to
be copied. The subject not only copied from such a document but also failed to explain
adequately the absence of offset and attribution for material he copy from it. He stated that he
viewed a proposal "as a secret document" and it is not therefore, in his view, held to the same
rigorous standard for attribution as are publications. OIG disagrees with this notion that the
contents of proposals are held to a less rigorous standard for crediting the work of others than
are other, more publicly disseminated, written efforts.

       OIG determined that the subject disregarded the instructions on the NSF Proposal
Evaluation form which state the reviewer should not "copy, quote or otherwise use material from

                                             Page 12
this proposal." Any breach in the integrity of the peer review system is serious because it
weakens the trust submitting PIS have that when reviewers, whose research interests may be
similar to the PIS', evaluate their confidential proposals the reviewers will also not use that
confidential material for their own advantage. PIS whose trust in the integrity of this system is
weakened may cease to put their best, most creative, ideas in proposals. Such proposals
submitted to NSF may describe less creative, less cutting-edge science and the scientist who is
withholding his or her best ideas may use part of the NSF support to perform this, undescribed,
but more creative, innovative research. Such breaches in trust undermine the system NSF relies
on to evaluate proposals. As stated in the Proposal and Award Manual (Manual 10) and
repeated in the NSF Proposal Evaluation form, "The Foundation receives proposals in
confidence and is responsible for protecting the confidentiality of their contents."

         In summary, the subject failed to observe his obligation to hold a proposal received for
review in confidence. He failed to observe the practices of offset and attribution for copied
material in his proposal and he attempted to portray the extent of copying as minimal. OIG
believes the subject knowingly failed to adhere to these accepted practices. Although OIG
repeatedly requested evidence to show that the material had not been copied from the PI'S
proposal, none was provided. Therefore these findings are supported by a preponderance of the
available evidence.

        In conclusion, OIG recommends that the Deputy Director of NSF find that the subject
has committed misconduct, specifically plagiarism and violation of the integrity of confidential
peer review, under NSF's definition of misconduct in science and engineering. Given the
circumstances of this case, OIG feels that the government's interest will be adequately protected
if the following actions are taken:

(1)    NSF should send a letter of reprimand to the subject stating NSF's position that the
       proposals received for peer review are confidential documents and the materials in them
       are not to be used in the reviewer's subsequent work.

(2)    NSF should bar the subject from serving as a peer reviewer for NSF for a period
       of five years from the date of NSF's action.




                                            Page 13
